HHS/OIG, Audit, "Partnership Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment and Supplies - January 1, 1998 through December 31, 2000 Kentucky Department for Medicaid Services, Frankfort, Kentucky," (A-05-02-00063)
Department
of Health and Human Services
"Partnership Audit of Medicaid Payments for Oxygen Related Durable Medical
Equipment and Supplies - January 1, 1998 through December 31, 2000 Kentucky
Department for Medicaid Services, Frankfort, Kentucky," (A-05-02-00063)
March 5, 2003
Complete Text of Report is available in PDF format
(691 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was performed jointly with the Kentucky Auditor of Public Accounts
under the Office of Inspector Generals Partnership Plan. The objective of the
review was to determine if the State agency was reimbursing Medicaid providers
in excess of the State Medicare limits for durable medical equipment (DME) and
supplies used to provide oxygen. We determined that, for the three-year audit
period ending December 31, 2000, the Medicaid program was overcharged $727,000
(federal share $511,397) for excessive reimbursements to providers of oxygen
related DME and supplies.  We recommended that the State refund $511,397
and up date the payment limits for oxygen related DME and supplies on a timely
basis.